                                                                    Employment and Training
                                                                    Administration
                      Office of Inspector General—Office of Audit
Department of Labor



                                                                    Unemployment Insurance
                                                                    Benefit Payment Control
                                                                    New Hire Detection Is A Better Method
                                                                    For Establishing UI Overpayments
                                                                    Than The Wage/UI Benefit Crossmatch




                                                                                              Date Issued: September 30, 2004
                                                                                              Report Number: 05-04-002-03-315
                                  U.S. Department of Labor—Office of Inspector General



TABLE OF CONTENTS_                                          __________
                                                                                Page

Executive Summary                                                                      i

Assistant Inspector General’s Report                                                1

Chapter I – Is New Hire Detection More Effective and Efficient
Than the Traditional Wage/UI Benefit Crossmatch?                                    2
      A. New Hire Detection Identified Overpayments Earlier, Resulting in
          Smaller Overpayments.                                                     2
      B. Time, Cost, or Other Efficiencies Have Resulted From the Use of
          New Hire Data, Compared to the Traditional Wage/UI Benefit
          Crossmatch.                                                               5

Chapter II – What Obstacles Are Preventing State UI Programs From
Implementing New Hire Detection?                                                   6

Chapter III – What Changes Would Enhance the Effectiveness and
Efficiency of New Hire Detection?                                                  8
       A. Require Employers to Report the First Date of Earnings for
          All New Hires.                                                           9
       B. Encourage State UI Programs to Access the NDNH.                         10
       C. Improve Employer Outreach, Monitoring, and Enforcement.                 12
       D. Encourage State UI Programs’ Analysis of Resources.                     14

Exhibits
      A. New Hire Detection Identifies Overpayments Earlier                       21
      B. ETA-227 Report Totals and Detection Results for States
         Not Visited That Use New Hire Detection                                  22
      C. States’ New Hire Work Date Reporting Requirements                        23
      D. Access to the NDNH                                                       24
      E. Employer Monitoring                                                      26
      F. Employer Penalties                                                       28
      G. State UI Agency’s Role in Compiling and/or Maintaining the SDNH          29
      H. Other State Agencies Compiling and/or Maintaining the SDNH               31

APPENDICES:
    A. BACKGROUND                                                                 35
    B. OBJECTIVES, SCOPE, METHODOLOGY, and CRITERIA                               37
    C. ACRONYMS and ABBREVIATIONS                                                 40
    D. RESPONSE TO DRAFT REPORT                                                   41




New Hire Detection Is a Better Method For Establishing UI Overpayments
05-04-002-03-315
                                  U.S. Department of Labor—Office of Inspector General



EXECUTIVE SUMMARY____________
The New Hire detection system is more effective and efficient than the Wage/UI
Benefit crossmatch system in identifying unemployment insurance (UI)
overpayments that occur when UI claimants fail to report earnings while
simultaneously working and claiming benefits. The use of New Hire detection
identifies overpayments earlier, reduces overpayment dollars, and increases the
chance of overpayment recovery.

We conducted a performance audit of the implementation of the New Hire
detection method, which is a recent addition to the Benefit Payment Control
(BPC) methodologies for detecting UI overpayments. Our objectives were to
determine: (1) if New Hire detection being used by 41 of 53 state UI programs is
proving to be more effective and efficient than the traditional Wage/UI Benefit
crossmatch, and (2) what obstacles are preventing 12 states from embracing this
detection method?

Results

In response to our questionnaire sent to all 53 state UI programs, 38 of the 41
states (93%) that use New Hire detection indicated that the New Hire detection
method is better at detecting UI overpayments earlier than the Wage/UI Benefit
crossmatch. This was verified during our fieldwork at seven state UI programs
that use New Hire detection. Although we did not audit the data, the state UI
programs reported data (ETA Form 227) that further supports the state UI
programs’ responses that the New Hire method detects overpayments earlier. In
2002, the seven UI programs we audited that were using New Hire detection
identified 41,404 overpayments valued at $14.7 million, compared to their
Wage/UI Benefit crossmatch that identified 29,872 overpayments valued at $34.9
million. More overpayments were identified through New Hire detection, but the
dollar amount was less because overpayments were detected earlier.

The overpayments for Wage/UI Benefit crossmatch were higher because it took
longer to detect and stop overpayments. New Hire detection can identify
overpayments in approximately one month, compared to the several months it
may take to identify overpayments through the Wage/UI Benefit crossmatch. As
a result, New Hire detection prevented additional overpayments that may have
occurred if detected through the use of the Wage/UI Benefit crossmatch.

Despite the benefits of New Hire detection, 12 states, for a variety of reasons,
have not yet implemented this detection method. In addition, more detailed
employer reporting and new legislation providing access to the National Directory
of New Hires (NDNH) would further improve the effectiveness and efficiency of
New Hire detection. Improving employer compliance for New Hire reporting and



New Hire Detection Is a Better Method For Establishing UI Overpayments               i
05-04-002-03-315
U.S. Department of Labor—Office of Inspector General


assisting states to analyze BPC resources would further enhance New Hire
detection capabilities.

Recommendations

We recommended that the Assistant Secretary for Employment and Training:

     1. continue to provide technical assistance and resources to the state UI
        programs not using the New Hire detection method to initiate and/or
        complete plans for implementation as soon as possible;

     2. work with DHHS to communicate to Congress the need for amending the
        Personal Responsibility and Work Opportunities Reconciliation Act of
        1996 (PRWORA), or introducing new legislation, to require employers to
        report a new hire’s first day of earnings and provide a clear, consistent,
        nationwide definition for this date;

     3. encourage state UI programs to access the NDNH and coordinate efforts
        with the U. S. Department of Health and Human Services (DHHS) and the
        state UI programs to accomplish this;

     4. work with DHHS, the lead department, to encourage state agencies
        compiling the State Directory of New Hires (SDNH) to expand monitoring
        and outreach programs that will improve employer compliance and seek
        enforcement through penalties for employers who repeatedly fail to report
        new hires; and

     5. assist the state UI programs in analyzing resources to determine the best
        detection methods, how to best allocate resources, and frequency of New
        Hire crossmatches.

ETA agreed with our recommendations, and its response is attached as
Appendix D. Findings 1 and 3 are resolved but not closed. Findings 2, 4, and 5
are unresolved pending the receipt of specific implementation plans.




ii              New Hire Detection Is a Better Method For Establishing UI Overpayments
                                                                        05-04-002-03-315
                                  U.S. Department of Labor—Office of Inspector General




U.S. Department of Labor                   Office of Inspector General
                                           Washington, DC. 20210




                      Assistant Inspector General’s Report


Emily Stover DeRocco
Assistant Secretary
 for Employment and Training


The Department of Labor (DOL) requires state Unemployment Insurance (UI)
programs to take steps to prevent payment errors, detect erroneous payments,
and collect UI overpayments. States carry out a variety of benefit payment
control (BPC) activities to detect overpayments. The most common of these, the
Wage/UI Benefit crossmatch, compares a state’s UI claims database against
employers’ quarterly wage reports. More recently, state UI programs have had
access to New Hire data in their states, reported by employers not later than
20 days after the date the employer hires the employee, in accordance with the
1996 welfare reform legislation, the Personal Responsibility and Work
Opportunity Reconciliation Act (PRWORA). While the primary purpose for
requiring the reporting of new hires is to locate individuals with child support
obligations, PRWORA allows state UI programs access to this data to match
against their UI claims.

We conducted a performance audit to determine the effectiveness and efficiency
of the New Hire detection method and identify obstacles to its implementation.
We analyzed the responses to a questionnaire that we sent to all 53 state UI
programs (50 states, District of Columbia, Puerto Rico, and the U.S. Virgin
Islands). Based on the responses, we visited seven states that had implemented
New Hire detection and two states that had not.

We conducted the audit in accordance with Government Auditing Standards for
performance audits. Our audit scope, methodology, and criteria are detailed in
Appendix B.


FINDINGS AND RECOMMENDATIONS
Our objectives were to determine whether New Hire detection is proving to be
more effective and efficient than the traditional Wage/UI Benefit crossmatch, and
if so, what obstacles are preventing some of the states from embracing this
detection method?


New Hire Detection Is a Better Method For Establishing UI Overpayments              1
05-04-002-03-315
U.S. Department of Labor—Office of Inspector General


Chapter I of this report compares the results of New Hire detection versus the
Wage/UI Benefit crossmatch in detecting and limiting overpayments. The
chapter also discusses the time and cost efficiencies of New Hire detection over
the Wage/UI Benefit crossmatch.

At the time of our audit work, 12 states were not using New Hire detection.
Chapter II identifies the various reasons and obstacles cited by these states for
non-use, and presents their future plans for implementation.

Although New Hire detection currently provides better results than other
detection methods, new legislation and other procedural improvements could
further enhance the effectiveness and efficiency of this method. Chapter III
discusses current recent legislative changes and procedural shortcomings.


Chapter I – Is New Hire Detection More Effective and Efficient
Than the Traditional Wage/UI Benefit Crossmatch?

The New Hire detection system is more effective and efficient than the Wage/UI
Benefit crossmatch system in identifying unemployment insurance (UI)
overpayments that occur when UI claimants fail to report earnings while
simultaneously working and claiming benefits. The use of New Hire detection
identifies overpayments earlier, reduces overpayment dollars, and increases the
chance of overpayment recovery. It also makes more efficient use of both
employer and state resources.

A. New Hire Detection Identifies Overpayments Earlier, Resulting in
   Smaller Overpayments.

New Hire detection identifies UI overpayments earlier, resulting in smaller
overpayments, because the data needed for New Hire detection is available
months before the data needed for the Wage/UI Benefit crossmatch. Further,
smaller overpayments make recovery more likely. Ninety-three percent of the
states that use New Hire detection (38 of 41) reported that this method detects UI
overpayments earlier than the Wage/UI Benefit crossmatch (see Exhibit A). This
was verified during our fieldwork at seven state UI programs that use New Hire
detection. Although we did not audit the data, the state UI programs reported
data (ETA Form 227) that further supports the state UI programs’ responses that
the New Hire method detects overpayments earlier. In 2002, the seven UI
programs we audited that were using New Hire detection identified 41,404
overpayments valued at $14.7 million, compared to their Wage/UI Benefit
crossmatch that identified 29,872 overpayments valued at $34.9 million. More
overpayments were identified through New Hire detection, but the dollar amount
was less because overpayments were detected earlier.



2              New Hire Detection Is a Better Method For Establishing UI Overpayments
                                                                       05-04-002-03-315
                                          U.S. Department of Labor—Office of Inspector General


PRWORA mandates that non-Federal employers1 report new hires to designated
state agencies:

        …not later than 20 days after the date the employer hires the
        employee; or in the case of an employer transmitting reports
        magnetically or electronically, by 2 monthly transmissions (if
        necessary) not less than 12 days nor more than 16 days apart.

PRWORA requires states to enter the reported New Hire data into the respective
State Directory of New Hires (SDNH) within five business days of receipt from an
employer. While the primary purpose for requiring the reporting of new hires is to
locate individuals with child support obligations, PRWORA allows state UI
programs access to this data to match against their UI claims.

As a result, state BPC programs can crossmatch the reported New Hire data
against their UI Claims database within approximately one month of hiring. In
contrast, the Wage/UI Benefit crossmatch takes place several months after
employers submit their quarterly wage reports, when overpayments may have
occurred for a significant number of weeks. In some cases, the Wage/UI Benefit
crossmatch would not detect an overpayment until after the claimant’s entire
benefit eligibility period had elapsed and a maximum overpayment had occurred.
Therefore, overpayments established by the Wage/UI Benefit crossmatch are
much larger than those detected using New Hire detection. This is demonstrated
for the seven states we visited that use New Hire detection in the following table:




1
  Federal employers do not report to a SDNH, but report directly to the NDNH. See Page 10 for a
discussion of problems associated with this reporting requirement.

New Hire Detection Is a Better Method For Establishing UI Overpayments                            3
05-04-002-03-315
U.S. Department of Labor—Office of Inspector General


                   Calendar Year 2002 ETA Form 227 Data
                Detection Results for the Seven States Visited

                      States Visited       Total Overpayments
                        Detection                Amount
                         Methods        Cases Detected      Avg.
                         Florida
                      Wage/UI Benefit      749    $998,900 $1,334
                        New Hire         5,215    2,344,291   450
                         Illinois
                      Wage/UI Benefit   18,397   22,077,587   1,200
                        New Hire        27,041    7,332,726     271
                        Louisiana
                      Wage/UI Benefit      729    1,204,178   1,652
                        New Hire         2,092      840,686     402
                         Nevada
                      Wage/UI Benefit      N/A         N/A     N/A
                        New Hire         1,222     651,808     533
                        Oklahoma
                      Wage/UI Benefit    3,208    2,015,479    628
                        New Hire           436      190,284    436
                          Texas
                      Wage/UI Benefit    3,144    6,000,375   1,909
                        New Hire         5,329    3,322,708     624
                       Wisconsin
                      Wage/UI Benefit    3,645    2,571,970    706
                        New Hire            69       19,324    280
                          Total
                      Wage/UI Benefit   29,872 $34,868,489 $1,167
                        New Hire        41,404 $14,701,827 $355

In these seven states, New Hire detection identified 41,404 overpayments valued
at $14.7 million, compared to the Wage/UI Benefit crossmatch that identified
29,872 overpayments valued at $34.9 million. The reported data excludes
Nevada’s Wage/UI Benefit crossmatch statistics because Nevada did not carry
out a Wage/UI Benefit crossmatch in 2002. Further, Wisconsin’s New Hire
reported data is limited because the state had just implemented New Hire
detection. Overall, more overpayments were identified through New Hire
detection, but the dollar amount was less because overpayments were detected
earlier. The overpayments for Wage/UI Benefit crossmatch were higher because
it took longer to detect and stop overpayments. New Hire detection prevented
additional overpayments that may have occurred if detected through the use of
the Wage/UI Benefit crossmatch. The average overpayment identified through
New Hire detection ($355) was 30 percent of the average overpayment identified
through Wage/UI Benefit crossmatch ($1,167). The average overpayment
identified through New Hire detection was also less in the states not visited (see
Exhibit B).


4              New Hire Detection Is a Better Method For Establishing UI Overpayments
                                                                       05-04-002-03-315
                                  U.S. Department of Labor—Office of Inspector General


By detecting overpayments before a claimant’s eligibility has been exhausted,
states can also prevent overpayments. For example, Florida places a “hold” on
additional benefit payments while investigating potential overpayments identified
through New Hire detection. This practice resulted in preventing overpayments
for 20,813 benefit weeks between January 2002 and June 2003, at a savings of
$4.5 million. If the overpayments had gone undetected until the claimants had
received UI benefits for all available weeks, the overpayments would have
equaled $21 million during the same period.

B. Time, Cost, or Other Efficiencies Have Resulted From the Use of New
   Hire Data Compared to the Traditional Wage/UI Benefit Crossmatch.

The states we visited could not provide analytical evidence of efficiencies from
using New Hire detection over the traditional Wage/UI Benefit crossmatch.
However, states responded during our visits or in their questionnaires that they
believe that New Hire detection is more efficient. Examples of these opinions are
provided below:

   •   The employer response rate to the wage verification request resulting from
       the New Hire detection system is higher than the response rate for the
       Wage/UI Benefit crossmatch system. This is probably due to the fact that
       employers are more likely to have wage records readily available to allow
       them to respond to New Hire wage verification requests since the
       employee is more likely to still be working for the employer and more
       current information is requested. (Hawaii, Louisiana, South Carolina, and
       Virginia)

   •   New Hire detection uses fewer resources because it is a simpler process
       than the Wage/UI Benefit crossmatch. Overhead costs are lower and the
       administrative complexity is less. There is no Benefit Audit, Reporting,
       and Tracking System to maintain and reconcile as there is with Wage/UI
       Benefit. In addition, the on-going programming costs of New Hire
       detection are lower. (Nevada)

   •   The appealed New Hire overpayment cases are 30 percent of the
       appealed Wage/UI Benefit overpayment cases, resulting in substantial
       administrative savings. To illustrate, in 2001, only 201 of 9,195
       (2.2 percent) total New Hire cases were appealed while 624 of 8,515
       (7.3 percent) total Wage/UI benefit cases were appealed. Also, the rate of
       overpayment collections for the two methods varied significantly. Only
       12 percent of the UI overpayments detected by the Wage/UI Benefit
       crossmatch were recovered in full within 90 days, while 44 percent of the
       UI overpayments identified by New Hire detection were recovered in full
       within 90 days. (Washington)




New Hire Detection Is a Better Method For Establishing UI Overpayments              5
05-04-002-03-315
U.S. Department of Labor—Office of Inspector General


    •   New Hire detection makes UI overpayment collection easier because the
        claimant’s recent work location is known. (Wisconsin)

    •   With New Hire detection, investigators are assigned fewer Wage/UI
        Benefit cases (Virginia), the more current UI data aids criminal
        prosecutions (West Virginia), and cases take less time to investigate.
        (Louisiana)


Chapter II – What Obstacles Are Preventing State UI Programs
From Implementing New Hire Detection?
Competing priorities, including the need to address time-critical Y2K issues, and
lack of funding has prevented some states from implementing the New Hire
detection method. Twelve state UI programs were not using the New Hire
detection method at the time of our audit, in spite of ETA’s efforts to encourage
its use. Seven of these states had plans for future implementation. ETA should
continue to encourage and provide incentives to state UI programs to fully
implement New Hire detection as soon as possible.

The 12 state UI programs not using the New Hire detection method at the time of
our audit were:

        •   California                •   Kentucky             •   Puerto Rico
        •   Colorado                  •   Michigan             •   Vermont
        •   Delaware                  •   New Jersey           •   Virgin Islands
        •   District of Columbia      •   New Mexico           •   Wyoming

These states gave the following reasons or obstacles why they have not adopted
New Hire detection:

    •   Competing information technology priorities that resulted in the
        Department of Human Services and the Department of Labor not
        establishing a linkage for the UI program to use the New Hire data.
        (Colorado)

    •   Computer system concerns during Y2K that could have possibly affected
        electrical systems and local area networks. (California and New Jersey)

    •   The SDNH does not capture the claimant’s date of hire as a required
        reporting element. Therefore, the New Hire detection system would not
        be efficient or effective in detecting overpayments and/or fraud.
        (Delaware)




6               New Hire Detection Is a Better Method For Establishing UI Overpayments
                                                                        05-04-002-03-315
                                  U.S. Department of Labor—Office of Inspector General


   •   Lack of available funds and personnel resources to implement an efficient
       and effective automated New Hire detection program. (New Jersey,
       Wyoming and U.S. Virgin Islands)

ETA has encouraged the use of the New Hire detection method. For example:

   •   In July 2003, ETA awarded $4.8 million in UI Integrity System Grants to
       41 states to implement or enhance systems to prevent, detect, and collect
       erroneous payments of UI benefits. Some of these states used a portion
       of these funds to implement or enhance New Hire detection.

   •   ETA has provided guidance and oversight on New Hire detection through
       program letters and field memorandums, reviews of state UI BPC
       programs, interaction with the State UI BPC programs, and annual
       integrity workshops.

   •   ETA issued Unemployment Insurance Program Letter (UIPL) No. 36-00,
       dated October 10, 2000, that encouraged state UI programs to take
       advantage of the New Hire system to prevent and detect overpayments.

At the time of our audit, seven of these12 state UI programs had plans to
implement New Hire Detection.

                   •   California                  •   New Mexico
                   •   District of Columbia        •   Puerto Rico
                   •   Kentucky                    •   Vermont
                   •   New Jersey

Examples of some of these states’ plans are:

   •   New Jersey Department of Labor (NJDOL) began its New Hire detection
       development and programming in October 2003. NJDOL plans to have an
       operational detection system in place in June 2004. The investigation of
       New Hire crossmatch results will reduce investigations for other BPC
       detection activities including the Wage/UI Benefit crossmatch, per NJDOL
       officials.

   •   California plans to develop its New Hire detection program in April 2005
       and implement it in 2007.

   •   The District of Columbia is developing and reviewing new software that
       matches New Hire data against the UI Benefit file to assess the efficiency
       and effectiveness in detecting New Hire overpayments and/or fraud.

ETA should continue to encourage state UI programs to implement New Hire
detection by (1) showcasing best practices, (2) promoting exchange programs

New Hire Detection Is a Better Method For Establishing UI Overpayments              7
05-04-002-03-315
U.S. Department of Labor—Office of Inspector General


among states, where staff from states using New Hire detection would
temporarily assist another state with implementation, and (3) providing additional
funding for implementation.

Recommendation 1:

We recommend that the Assistant Secretary for Employment and Training
continue to provide technical assistance and resources to the state UI programs
not using the New Hire detection method to initiate and/or complete plans for
implementation as soon as possible.

Response:

ETA agrees with this recommendation. ETA has demonstrated its commitment
to assisting states in implementing and/or improving systems to reduce UI
overpayments and promoting the use of New Hire detection systems. In
addition, it has awarded approximately $4.6 million in fiscal year 2003 to states to
implement or enhance New Hire detection systems. In fiscal year 2004, $2.3
million will be provided for benefit payment control crossmatches, including New
Hire detection systems.

Auditor’s Conclusion:

We consider this recommendation resolved.


Chapter III – What Changes Would Enhance the Effectiveness
and Efficiency of New Hire Detection?

Although 41 state UI programs are using New Hire detection and this method
provides better results than other controllable detection methods, recent
legislative changes and other procedural improvements could further enhance its
effectiveness and efficiency.

Specifically, the following changes would benefit New Hire detection:

    •   Require employer to report of the first day of earnings for all new hires;

    •   Encourage state UI programs to access the National Directory of New
        Hires (NDNH);

    •   Improve employer outreach, monitoring, and enforcement; and

    •   Encourage state UI programs to analyze resources effectively for
        maximum results in detecting overpayments.


8               New Hire Detection Is a Better Method For Establishing UI Overpayments
                                                                        05-04-002-03-315
                                             U.S. Department of Labor—Office of Inspector General


These changes will address the inherent weaknesses of current New Hire
detection activities.

A. Require Employers to Report the First Day of Earnings for All New
   Hires.

Current reporting requirements do not provide the data needed for New Hire
detection to precisely identify UI overpayments. As a result, the method
identifies a significant number of cases that, upon further investigation, do not
involve payment of ineligible benefits. Defining and requiring employers to report
the specific date that new hires begin earning wages would increase the
screening accuracy of New Hire detection, thus reducing the resources
expended on identifying and investigating “false hits”.2 The state UI programs
that use New Hire detection most often cited the need for defining and reporting
this information as the way to improve New Hire detection.

New Hire detection currently identifies potential overpayment cases by matching
periods of employment with periods in which an individual received UI benefits.
However, completing an accurate analysis requires obtaining precise information
from employers on the date a new hire began earning wages. “First day of work”
or “date of hire” are the two terms most frequently used to describe this date.
While PRWORA requires employers to report new hires within 20 days, it does
not define the “date of hire” or require that employers report the date. As a
result, individual states, at their own discretion, have established terminology and
reporting options, which vary among states.

The definition of “first day of work” in one state may be similar to the definition of
“date of hire” in another state. Other states have not defined these terms. As a
result, employers provide differing information including the date the employer
offered the job, the date training began, the date of a physical examination, or the
date of the first paycheck. If an employer does not report a date, some states
use a default date to estimate the start of wages. Examples include the date the
employer’s report is postmarked or the date of entry into the SDNH. In one state,
if the employer opts not to report a “date of hire,” the new hire is excluded from
the analysis and possible investigation.

The following table summarizes the variety of reporting provisions of the first date
of earnings for the nine states we visited:




2
    Matches between a new hire and a UI claim that do not result in an overpayment after investigation.

New Hire Detection Is a Better Method For Establishing UI Overpayments                                    9
05-04-002-03-315
U.S. Department of Labor—Office of Inspector General


                                                                       Reporting
        State              Date Reported and Definition                Required
                                                                       By State?
     California      Start-of-work date – first day services              Yes
                     were performed for wages
       Florida       Date of Hire – first day of work for which            Yes
                     the employee is owed income
       Illinois      Date of Hire – first day of work for pay              No
      Louisiana      Date of Hire (not defined)                            No
     New Jersey      Date of Hire (not defined)                            No
       Nevada        Date of Hire (not defined)                            No
     Oklahoma        Date of Hire – first day services                     Yes
                     performed by an employee
       Texas         Date of Hire – first day services are                 No
                     performed for wages by an individual
     Wisconsin       Date of Hire – first day the employee                 Yes
                     performs wage earning services

At the time of our audit 24 states required that employers report the “first day of
work” or the “date of hire” or both. Seventeen states made reporting one or both
of these items optional, while 12 states required neither of these data elements to
be reported (See Exhibit C).

The absence of a uniform terminology with a clear, consistent, nationwide
definition and reporting requirement causes incomplete and inconsistent data
within SDNHs and the NDNH. This, in turn, reduces the effectiveness of using
the New Hire database to detect cases for investigation that do not involve actual
UI overpayments and not identifying some cases in which UI overpayments may
have occurred.

Having employers report the first day of earnings would increase the
effectiveness of New Hire detection. Since PRWORA defines the current
reporting requirements, legislative action is needed to define and establish a new
reporting requirement for the first day of earnings. ETA should work with
DHHS, the lead Federal Agency responsible for oversight of the PRWORA, and
communicate to Congress the need for, and benefits of, such a change. ETA
could also encourage the state UI programs to work with child support
enforcement agencies on New Hire reporting requirements.

B. Encourage State UI Programs to Access the National Directory of New
   Hires (NDNH).

During our audit period, reporting provisions in PRWORA did not permit state UI
programs access to the NDNH. As a result, states could not obtain information
on a nationwide basis on all new hires that might have been receiving UI
payments. Therefore, UI overpayments could go undetected. State UI programs

10                New Hire Detection Is a Better Method For Establishing UI Overpayments
                                                                          05-04-002-03-315
                                  U.S. Department of Labor—Office of Inspector General


believed that access to the NDNH would significantly improve the results of New
Hire detection. In response to our questionnaire, 33 of 41 states using New Hire
detection expressed an interest in obtaining access to the NDNH (see Exhibit D).

PRWORA requires the reporting of information on new hires for the purpose of
establishing parentage and/or establishing and enforcing child support
obligations. The system, while providing information that could also be useful in
detecting UI overpayments, had limitations. In most cases, employers reported
new hire information to a SDNH. In turn, the state forwarded this data to the
NDNH. However, exceptions to this reporting structure include (1) allowing
employers located in multiple states to report all new hires to one designated
state, and (2) permitting the Federal Government to report new hire information
directly to the NDNH.

PRWORA allows an employer with locations in multiple states the option of
reporting all its new hires to one state of its choosing. For example, if
Company X has factories in Alabama, Michigan, and Colorado, it can elect to
report information on all new hires, regardless of location, to Michigan’s SDNH.
In this instance, neither Alabama nor Colorado’s state UI programs would receive
information on employees hired by Company X in their respective state. As a
result, Alabama and Colorado could not identify UI overpayments to these
individuals through New Hire detection.

The Federal Government is not required to report new hires to SDNHs. Instead,
recently hired Federal employees are reported directly to the NDNH. As a result,
no state or the District of Columbia could identify UI overpayments made to
individuals hired by the Federal Government through New Hire detection. The
Federal Government hires 300,000 new employees each year who are reported
directly to the NDNH, bypassing SDNHs.

Further, individual states could not detect a new hire who was receiving UI
benefits in one state while earning wages in a neighboring state. We found no
state that was sharing the information in its SDNH with neighboring states.
Because New Hire detection was limited to information in its own SDNH, a state
could not identify a person receiving UI benefits while earning wages in a
neighboring state. For instance, New Hire detection in Illinois would not capture
an Illinois UI claimant earning wages in Indiana.

Since the NDNH consolidates new hire information from all sources, providing
state UI programs access to the NDNH will overcome these reporting obstacles
and increase the effectiveness of New Hire detection. While access to the
NDNH would likely identify a larger number of potential UI overpayment cases,
the available BPC resources in some states could limit the beneficial effect. For
example, Nevada UI officials explained that their BPC staff cannot investigate all
of the potential UI overpayments currently identified through New Hire detection.
Therefore, identifying more potential cases through access to the NDNH would


New Hire Detection Is a Better Method For Establishing UI Overpayments             11
05-04-002-03-315
U.S. Department of Labor—Office of Inspector General


not improve their overall effectiveness unless additional BPC resources were
available. Resources will be discussed further in Section III-D (page 14).

The SUTA Dumping Prevention Act of 2004, P.L. 108-295, signed by the
President on August 9, 2004, allows the state UI programs access to the NDNH.
This access addresses the limitations we identified during our audit. ETA should
work with the state UI programs and DHHS in coordinating efforts to provide
access to the UI programs.

C. Improve Employer Outreach, Monitoring, and Enforcement.

The states’ employer compliance rates for New Hire reporting show opportunity
for improvement. Nineteen of 53 states do not monitor employer compliance.
Eighteen of the 34 states that monitor compliance could not estimate the
employer compliance rate. Of those that did estimate a compliance rate in their
questionnaire, only four states estimated it at 80 percent or higher (see
Exhibit E). When employers fail to report new hires, or fail to report timely, the
SDNH is incomplete and less effective in identifying UI overpayments through
New Hire detection. Better state outreach, monitoring, and enforcement efforts
would raise the level of reporting compliance.

Outreach

State outreach efforts both educate and remind employers about New Hire
reporting requirements. All nine states we audited conduct limited outreach
activities in an effort to increase employer participation in reporting new hires to
the SDNH. Examples include mailing New Hire reporting information to
employers and new businesses, establishing websites for information and
reporting, making presentations at employer conferences, and including
information on New Hire requirements with routine quarterly UI information (i.e.
tax statements and newsletters).

New Jersey’s multi-layered effort is an example of outreach to employers. The
New Jersey Department of Human Services (NJDHS) and its contractor,
Northrop Grumman, Inc. (NGI):

     •   mailed information to all New Jersey employers to inform them of New
         Hire reporting requirements,
     •   included New Hire reporting information in three issues of New Jersey
         Business magazine,
     •   made New Hire presentations to business and retailer interest groups,
     •   utilized the New Jersey Department of Treasury, Division of Revenue
         Business Registration booklet to inform new employers of their new hire
         reporting responsibilities,
     •   developed brochures and sent New Hire letters to agencies that target
         seasonal employers, and

12               New Hire Detection Is a Better Method For Establishing UI Overpayments
                                                                         05-04-002-03-315
                                  U.S. Department of Labor—Office of Inspector General


   •   maintained a website that contains New Hire reporting information for New
       Jersey employers.

Monitoring

Monitoring employer compliance measures the degree to which data is being
captured by the SDNH and potentially identifies specific employers who are not
reporting New Hire information. Nineteen of the 53 states (36 percent) do not
monitor employer compliance with New Hire reporting.

Of the nine states visited, California, Illinois, Nevada, and Oklahoma perform no
monitoring of employer compliance with New Hire reporting requirements.
Florida, Louisiana, New Jersey, Texas, and Wisconsin perform limited monitoring
of employer compliance. The monitoring performed in these five states focuses
on identifying and contacting potentially non-compliant employers.

For example, Louisiana sends compliance letters to employers that have 50 or
more potential new hires in a calendar quarter that are not reported to the SDNH.
Those employers with fewer than 50 new hires in a quarter are not contacted. As
time permits, New Jersey contacts the 500 employers with the largest number of
apparent new hires on the quarterly wage report that are not reported in the
SDNH. The remaining employers are not contacted.

Enforcement

An enforcement program acts as a deterrent to non-reporting of New Hire
information. An effective enforcement program allows states to assess financial
penalties against those employers who repeatedly fail to report new hires.
PRWORA allows the states to set a civil penalty for non-compliant employers.

Most states (37) have established penalties for employer non-compliance with
New Hire reporting requirements (see Exhibit F). However, the penalties are
generally not being enforced. Without enforcement, employers will not always
report new hires accurately and timely, because there are no consequences for
repeated and/or egregious non-compliance.

Without on-site monitoring to identify specific violators, unreported new hires
cannot be identified for penalty assessment. PRWORA does not require states
to perform on-site monitoring to identify violators. The states indicated they
cannot enforce the penalties because:

   •   they do not want to alienate employers,
   •   they cannot direct multistate employers that do not report in their state,
   •   procedures and forms for imposing fines are incomplete, or
   •   resources are not available for enforcement activities.


New Hire Detection Is a Better Method For Establishing UI Overpayments              13
05-04-002-03-315
U.S. Department of Labor—Office of Inspector General


Seven of the nine states visited include penalties within state law for failure to
report new hires to the SDNH. Only Florida and Oklahoma do not have
penalties. The state laws generally call for penalties of $15 to $25 per instance
for not reporting a new hire, and a penalty of up to $500 for conspiracy between
the employer and employee not to report. We suggest penalties be assessed
only after employers have been informed of New Hire reporting requirements
through comprehensive employer outreach efforts.

ETA has no direct oversight responsibility over SDNH activities in the states,
including the states where the SDNH is maintained by the state UI agency; this is
the responsibility of DHHS. However, because of the potential benefits of higher
employer reporting compliance, ETA should work with, and influence, DHHS to
encourage the states to improve outreach, monitoring, and enforcement activities
because of potential benefits of higher employer reporting compliance. ETA
should point out that improvements in employer reporting to SDNHs will benefit
other state programs (e.g. child support enforcement), in addition to UI programs,
and may provide a basis for encouraging improvements.

D. Encourage State UI Programs’ Analysis of Resources.

ETA encouraged state UI programs to take full advantage of New Hire detection
to prevent and detect overpayments. While states have attempted to comply
with this directive, they have not evaluated how best to accomplish their mission
with limited resources. Without analyzing available resources and evaluating
detection results, UI officials cannot make informed decisions that will benefit
their state and detect UI overpayments effectively and efficiently. ETA should
consider incentives to encourage states to analyze their BPC operations.

As reported earlier, 41 states have decided to use New Hire detection as a
detection method. Several other BPC methods are available to the states for
detecting UI overpayments. The Wage/UI Benefit crossmatch was the traditional
method used until the enactment of PRWORA. Other BPC detection methods
include the interstate benefit crossmatch, fictitious employer detection system,
and low earnings verification. The states should analyze all detection methods it
uses to determine what method, or combination of methods, should receive
maximum resources to achieve optimum results. For example, currently there
are limitations that exist with the SDNH system. Until state UI programs have
access to the NDNH and the compliance rate for reporting new hires increases
significantly, the states will continue to benefit from the Wage/UI Benefit
crossmatch.

The frequency of New Hire detection crossmatches varies among the states:

     •   10 state UI programs crossmatch daily to the SDNH,
     •   2 states crossmatch more than once a week,
     •   21 states crossmatch weekly,

14               New Hire Detection Is a Better Method For Establishing UI Overpayments
                                                                         05-04-002-03-315
                                  U.S. Department of Labor—Office of Inspector General


   •   6 states crossmatch monthly, and
   •   2 states crossmatch quarterly.

More frequent crossmatches result in timely investigations, smaller
overpayments, and a better chance of overpayment recovery. A
September 2003 OIG report, entitled “Improved Quality Control Practices Within
the Benefit Accuracy Measurement System Could Save the Unemployment Trust
Fund Approximately $400 Million Annually” (Report No. 22-03-009-03-315)
demonstrated the potential financial benefits of more frequent crossmatches. In
deciding how often to crossmatch, states must balance these benefits with the
additional resources, such as staff and computer time, required to perform the
crossmatches and investigate the hits.

All state UI programs should perform an analysis of BPC resources and results to
determine how to best utilize limited resources in the detection and prevention of
UI overpayments. Examples of decisions that should be considered by the state
UI agencies include:

   •   What are the best methods for detecting UI overpayments?
   •   How often should the New Hire crossmatch be conducted?
   •   How can BPC resources be best allocated to detection activities?

Considering the identified changes (presented in Parts A, B, and C above) that
are needed to make New Hire detection more effective and efficient, states might
be reluctant to analyze their BPC function and make changes immediately.
While New Hire detection should provide maximum benefit when these changes
are in place, beginning an analysis of BPC operations earlier will benefit long-
term strategic planning of resources.

ETA should assist the state UI programs in performing an analysis of the
operations of the BPC function to determine the best use of their limited
resources. Examples of assistance could include additional one-time funding, a
seminar on how to conduct the analysis, or an ETA task force to lead the
analysis in each state.

Recommendations:

Our draft report had 4 recommendations to address conditions described in this
finding. The recommendations, ETA’s response to each recommendation, and
the Auditor’s conclusion for each recommendation follow.

Recommendation 2

We recommend that the Assistant Secretary for Employment and Training work
with DHHS to communicate to Congress the need for amending the Personal
Responsibility and Work Opportunities Reconciliation Act of 1996 (PRWORA), or

New Hire Detection Is a Better Method For Establishing UI Overpayments             15
05-04-002-03-315
U.S. Department of Labor—Office of Inspector General


introducing new legislation, to require employers to report a new hire’s first day of
earnings and provide a clear, consistent, nationwide definition for this date.

Response

ETA agrees with this recommendation. ETA stated that in the course of its
discussions with DHHS concerning states’ access to the NDNH, ETA officials will
explore with DHHS the potential and implications of amending PRWORA to
require employers to report a date of first earnings for new hires.

Auditor’s Conclusion

ETA plans to explore the issue of requiring employers to report a date of first
earnings for new hires with DHHS. This recommendation is unresolved pending
the receipt of a specific plan detailing when discussions with DHHS will be
conducted.

Recommendation 3

We recommend that the Assistant Secretary for Employment and Training
encourage state UI programs to access the NDNH and coordinate efforts with the
U. S. Department of Health and Human Services (DHHS) and the state UI
programs to accomplish this.

Response

ETA agrees with this recommendation. ETA officials have begun initial
discussions with DHHS about how to provide states access to the NDNH and
future discussions will include state agencies.

Auditor’s Conclusion

We consider this recommendation resolved because ETA officials have begun
discussions with DHHS. Once the states have access to the NDNH, ETA will
need to provide evidence of encouraging the states to use this detection method
in order for the recommendation to be closed.

Recommendation 4

We recommend that the Assistant Secretary for Employment and Training work
with DHHS, the lead department, to encourage state agencies compiling the
State Directory of New Hires (SDNH) to expand monitoring and outreach
programs that will improve employer compliance and seek enforcement through
penalties for employers who repeatedly fail to report new hires.




16              New Hire Detection Is a Better Method For Establishing UI Overpayments
                                                                        05-04-002-03-315
                                  U.S. Department of Labor—Office of Inspector General


Response

ETA agrees with this recommendation. ETA stated that during discussions with
DHHS, ETA officials will ask DHHS to encourage those state agencies
responsible for compiling the SDNH to expand monitoring and outreach
programs that will improve employer compliance. ETA will also work with DHHS
to assess the idea of seeking statutory or regulatory authority to initiate
enforcement through penalties for employers who repeatedly fail to report new
hires. In addition, ETA will discuss with DHHS whether additional resources may
be provided to the states to implement such enforcement efforts.

Auditor’s Conclusion

This recommendation is unresolved pending the receipt of a specific plan
detailing when discussions with DHHS will be conducted.

Recommendation 5

We recommend that the Assistant Secretary for Employment and Training assist
the state UI programs in analyzing resources to determine: the best detection
methods, how to best allocate resources, and frequency of New Hire
crossmatches.

Response

ETA agrees with this recommendation. ETA will continue to provide ongoing
technical assistance to states in analyzing performance data and in
disseminating information about practices through program directives, meetings,
and conferences.

ETA also responded that it supports the states’ continued use of a variety of
methods to detect overpayments, in addition to the New Hire detection system.
ETA believes there are limitations that exist with the NDNH and SDNH system
(i.e. with the SDNH, multi-state employers report new hires to only one state).
Therefore, until states actually have access to the NDNH, and employer
compliance in reporting new hires increases significantly, states will continue to
benefit from operating the UI Benefit/Wage crossmatch system to detect
unreported wages.




New Hire Detection Is a Better Method For Establishing UI Overpayments               17
05-04-002-03-315
U.S. Department of Labor—Office of Inspector General


Auditor’s Conclusion

ETA states it will continue ongoing technical assistance to the states. The
response does not specifically address how ETA will assist states in analyzing
resources. This recommendation is unresolved pending the receipt of a specific
action plan.




Elliot P. Lewis
September 5, 2003




18              New Hire Detection Is a Better Method For Establishing UI Overpayments
                                                                        05-04-002-03-315
                                  U.S. Department of Labor—Office of Inspector General




                                EXHIBITS




New Hire Detection Is a Better Method For Establishing UI Overpayments             19
05-04-002-03-315
                                             U.S. Department of Labor—Office of Inspector General


                                                                                      Exhibit A

New Hire Detection Identifies Overpayments Earlier

In response to our question, “Is the New Hire detection process better at
detecting UI overpayments earlier (or preventing an overpayment in some cases)
than the Wage/UI Benefit crossmatch?” the 41 states that use New Hire
detection gave the following responses:

                State  Response                                      State      Response
         Alabama         Yes                                   Nebraska           Yes
         Alaska          Yes                                   Nevada             Yes
         Arizona         Yes                                   New Hampshire      Yes
         Arkansas        Yes                                   New York           Yes
         Connecticut     Yes                                   North Carolina     Yes
         Florida         Yes                                   North Dakota        No
         Georgia         Yes                                   Ohio               Yes
         Hawaii          Yes                                   Oklahoma           Yes
         Idaho           Yes                                   Oregon             Yes
         Illinois        Yes                                   Pennsylvania       Yes
         Indiana         Yes                                   Rhode Island       Yes
         Iowa            Yes                                   South Carolina     Yes
         Kansas          Yes                                   South Dakota     Unknown3
         Louisiana       Yes                                   Tennessee          Yes
         Maine           Yes                                   Texas              Yes
         Maryland        Yes                                   Utah               Yes
         Massachusetts   Yes                                   Virginia           Yes
         Minnesota     Unknown3                                Washington         Yes
         Mississippi     Yes                                   West Virginia      Yes
         Missouri        Yes                                   Wisconsin          Yes
         Montana         Yes


Summary

38 of 41 states (93 percent) that use New Hire detection indicate that the New
Hire detection process is better at detecting UI overpayments earlier than the
Wage/UI Benefit crossmatch.




3
    The state’s response was that they were unable to provide an opinion.

New Hire Detection Is a Better Method For Establishing UI Overpayments                        21
05-04-002-03-315
U.S. Department of Labor—Office of Inspector General


                                                                                                   Exhibit B

ETA-227 Report Totals4 and Detection Results for the Period
January 1, 2002 through September 30, 2002 for the 34 States Not Visited
That Use New Hire Detection


                            Controllable    Total Overpayments
                             Methods     Cases     Amount     Avg.
                             Wage/UI
                             Benefit     70,017 $51,869,824 $741
                            New Hire
                             System      60,997 $31,167,077 $511

Of the 34 states not visited during our audit that use New Hire detection:

       •   30 states conducted New Hire detection for part or all of the period from
           January 1 through September 30, 2002. Comparative data for those
           states is summarized in the table above.

       •   Two states (AZ and ME) began using New Hire detection in
           September 2002 and did not report New Hire data through
           September 30, 2002 within ETA-227. Data for these two states are not
           included in the table.

       •   New York did not report New Hire detection data in the New Hire line item
           of ETA-227 (through September 30, 2002). The date that New Hire
           detection began was not provided. New York is not included in the table.

       •   Idaho did not provide ETA-227 data. Idaho is not included in the table.




4
    These statistics were provided by the state UI program and were not subjected to audit verification.



22                     New Hire Detection Is a Better Method For Establishing UI Overpayments
                                                                               05-04-002-03-315
                                               U.S. Department of Labor—Office of Inspector General


                                                                                                        Exhibit C

States’ New Hire Reporting Date Requirements5

In response to our questionnaire and audit results, we compiled the following data:


State         Reporting Date                                  State                     Reporting Date
                First Day of Work
Alabama          (FDW) required                               Nebraska                           None
Alaska         Date of Hire optional                          Nevada                     Date of Hire optional
Arizona                None                                   New Hampshire                 FDW required
Arkansas               None                                   New Jersey                 Date of Hire optional
California        FDW required                                New Mexico                    FDW required
Colorado               None                                   New York                   Date of Hire optional
Connecticut   Date of Hire required                           North Carolina                FDW required
Delaware               None                                   North Dakota               Date of Hire optional
DC             Date of Hire optional                          Ohio                       Date of Hire required
Florida           FDW required                                Oklahoma                      FDW required
Georgia           FDW required                                Oregon                        FDW optional
Hawaii                 None                                   Pennsylvania                  FDW required
Idaho                  None                                   Puerto Rico                        None
Illinois          FDW optional                                Rhode Island               Date of Hire optional
Indiana           FDW required                                South Carolina             Date of Hire optional
Iowa              FDW required                                South Dakota               Date of Hire optional
Kansas                 None                                   Tennessee                     FDW required
Kentucky       Date of Hire optional                          Texas                         FDW optional
Louisiana      Date of Hire optional                          Utah                       Date of Hire optional
Maine             FDW required                                Vermont                       FDW required
Maryland          FDW required                                Virginia                           None
Massachusetts     FDW required                                Virgin Islands                FDW required
Michigan       Date of Hire optional                          Washington                         None
Minnesota      Date of Hire optional                          West Virginia              Date of Hire required
Mississippi       FDW required                                Wisconsin                     FDW required
Missouri          FDW required                                Wyoming                            None
Montana           FDW required

Summary

First Day of Work Required -                     21 states
Date of Hire Required -                          03 states
First Day of Work Optional -                     03 states
Date of Hire Optional -                          14 states
No Date Reported -                               12 states
Total                                            53 states
5
  We requested that the states indicate whether the first day of work (FDW) was a required reporting element and to
provide all “other” required and optional reporting elements beyond the elements captured on a new hire’s W-4. In
some cases, the states indicated that both the date of hire and first day of work were required. In those cases, we
included only the FDW.

New Hire Detection Is a Better Method For Establishing UI Overpayments                                                23
05-04-002-03-315
U.S. Department of Labor—Office of Inspector General


                                                                                    Exhibit D

Access to the National Directory of New Hires (NDNH)

In response to our questionnaire, “Would access to the NDNH have a major
impact on improving the results of your state’s New Hire detection of UI
overpayments?” 41 states’ that use New Hire detection replied as follows:

                  Improve
      State       New Hire                                Remarks
                  Results?
                                Locate new hires with outstanding overpayments working in
Alabama               Yes       other states, find interstate claimants working in another state
                                while drawing UI benefits
Alaska                Yes       Assist detecting new hires in other states, and recovery
Arizona               Yes       Would expand the potential employer base
Arkansas              No        Workload would increase significantly, negative impact
Connecticut           Yes       Increase fraud overpayments that occur in neighboring states
                                Would be able to find more new hires through hires residing
Florida               Yes
                                in Florida but reported to another state
                                Enhance ability to detect overpayments through access of a
Georgia               Yes
                                larger pool of employers
                                Greatly improve detection capabilities because of new hires
Hawaii                Yes
                                reported to other states by multistate employers
Idaho                 No        Probably not a major impact
                                While an increase in detection would be expected, unknown
Illinois              Yes
                                whether this increase could be defined as major
                                Increase chances of matching/preventing overpayments by
Indiana               Yes       accessing multistate employer new hires reported to another
                                state, uncertain as to how major it would be
Iowa                  Yes       Should impact results favorably, unknown major impact
Kansas                Yes       Access to new hires reported by multistate employers
                                Access to out-of-state new hires, especially border states,
Louisiana             Yes
                                impact may not be major, but more thorough detection
Maine                Yes        More information would result in more detections
Maryland          Unanswered    Unsure at this time
Massachusetts     Unanswered    Not familiar with NDNH and its possible benefits
Minnesota         Unanswered    Unknown, it may have major impact
                                Unsure as to how much of an impact, would help with
Mississippi           Yes
                                detecting out-of-state claimants
Missouri              Yes       Increase ability to detect, key to prevention and recovery
                                Problems when claimants move out-of-state for detecting and
Montana               Yes
                                collecting overpayments
                                Access to new hires reported out-of-state by large employers,
Nebraska              Yes
                                beneficial collections impact, need resources
Nevada                No        Access improves detection in border states, need resources
New                             Many claimants work out-of-state, will detect fraud committed
                      Yes       outside of New Hampshire, will assist collection efforts
Hampshire
New York          Unanswered    Positively impact efforts to identify and stop UI fraud
North Carolina       Yes        Large NC employers report out-of-state, major problem



24               New Hire Detection Is a Better Method For Establishing UI Overpayments
                                                                         05-04-002-03-315
                                   U.S. Department of Labor—Office of Inspector General


                                                                   Exhibit D (Continued)

                 Improve
     State       New Hire                               Remarks
                 Results?
                              Enhance ability to detect overpayments sooner through access
North Dakota        Yes
                              of Minnesota new hires (two population areas in east)
                              Able to detect individuals collecting Ohio benefits while working
Ohio                Yes
                              in other states, Interstate crossmatch is only wage-based
Oklahoma            Yes       Impact all states since society is mobile
                              Match claims of new hires reported to another state and access
Oregon              Yes
                              to Federal hires, also useful for recovery efforts
                              Enhance detection abilities for new hires reported to another
Pennsylvania        Yes
                              state and access to Federal New Hire data
                              Include law requiring return of New Hire information, improve
Rhode Island        Yes
                              employer performance on providing data
                              Assist in identifying the state reporting the New Hire versus
South Carolina      Yes
                              having to send a request to each state for hire date
                              Access to employers reporting to other states, decrease the
South Dakota        Yes
                              number of Wage Record audits sent to employers
                              Overpayments resulting from interstate claims could be
Tennessee           Yes
                              detected earlier, benefit from multistate employer data
                              Detect possible unreported earnings from claimants working in
Texas               Yes
                              other states earlier than Interstate Benefit crossmatch
                              Find overpayments and penalties faster, potentially establish
Utah                Yes
                              less overpayment dollar amounts
                              Reduce the size of Interstate Benefit overpayments due to
Virginia            Yes
                              earlier detection
                              Have access to 16,000 employer’s data reporting out-of-state,
Washington          Yes
                              State does not have staff/budget to work all “hits” now
                              Maybe – would be a greater aide in recovering than detecting
West Virginia        No
                              overpayments, could assist in detection
Wisconsin           Yes       Will find out-of-state employment not reported to us

Summary

Yes -                33
No -                  4
Unanswered -          4
Total                41 state UI programs using New Hire detection




New Hire Detection Is a Better Method For Establishing UI Overpayments                      25
05-04-002-03-315
U.S. Department of Labor—Office of Inspector General


                                                                             Exhibit E

Employer Monitoring

In response to our questionnaire, “Are employers monitored for compliance with
New Hire reporting?” and “From this monitoring, what appears to be the
compliance rate of employers?” the 53 states’ comments are summarized below:

                               Are Employers
                                                       Estimated Employer
                 State         Monitored for
                                                        Compliance Rate
                                Compliance?
          Alabama                   No              Not applicable
          Alaska                    No              Not applicable
          Arizona                   Yes             51 percent
          Arkansas                  Yes             Unknown
          California                No              Not applicable
          Colorado                  Yes             80 percent
          Connecticut               No              Not applicable
          Delaware                  Yes             Unknown
          District of Columbia      No              Not applicable
          Florida                   Yes             60 percent
          Georgia                   Yes             33 percent
          Hawaii                    Yes             Not available
          Idaho                     Yes             99 percent
          Illinois                  No              Not applicable
          Indiana                   Yes             Not available
          Iowa                      Yes             Unknown
          Kansas                    No              Not applicable
          Kentucky                  No              Not applicable
          Louisiana                 Yes             Unknown
          Maine                     No              Not applicable
          Maryland                  Yes             Not available
          Massachusetts             Yes             Unknown
          Michigan                  No              Not applicable
          Minnesota                 Yes             53 percent
          Mississippi               No              Not applicable
          Missouri                  No              Not applicable
          Montana                   No              Not applicable
          Nebraska                  No              Not applicable
          Nevada                    No              Not applicable
          New Hampshire             Yes             99 percent
          New Jersey                Yes             70 to 75 percent
          New Mexico                Yes             Unknown
          New York                  Yes             Not available


26              New Hire Detection Is a Better Method For Establishing UI Overpayments
                                                                        05-04-002-03-315
                                  U.S. Department of Labor—Office of Inspector General


                                                               Exhibit E (Continued)

                                 Are Employers
                                                    Estimated Employer
                      State      Monitored for
                                                     Compliance Rate
                                  Compliance?
                North Carolina        No            Not applicable
                North Dakota          Yes           Unknown
                Ohio                  Yes           Not available
                Oklahoma              No6           Not applicable
                Oregon                No            Not applicable
                Pennsylvania          Yes           35 to 40 percent
                Puerto Rico           Yes           Unknown
                Rhode Island          Yes           Unknown
                South Carolina        Yes           Not available
                South Dakota          Yes           Not available
                Tennessee             Yes           70 percent
                Texas                 Yes           36 percent
                Utah                  Yes           85 percent
                Vermont               Yes           79 percent
                Virgin Islands        No            Not applicable
                Virginia              Yes           Not available
                Washington            Yes           48 percent
                West Virginia         Yes           Not available
                Wisconsin             Yes           60 to 80 percent
                Wyoming               Yes           26 percent

Summary

States that do not monitor New Hire reporting -      19
States that monitor New Hire reporting (see below) - 34
Total                                                53

Estimated Compliance Rate breakdown for 34 states that monitor

Not available or unknown -                                18
Less than 80 percent -                                    12
80 percent or greater -                                    4
Total                                                     34




6
    Per audit

New Hire Detection Is a Better Method For Establishing UI Overpayments             27
05-04-002-03-315
U.S. Department of Labor—Office of Inspector General


                                                                              Exhibit F

Employer Penalties

In response to our questionnaire, “Are there penalties for employers not reporting
New Hires?” and responses for enforcement of penalties, the 53 states’
comments are summarized below:

     State        Penalty? Enforced?              State           Penalty? Enforced?
 Alabama            Yes       No             Nebraska               Yes     Unknown
 Alaska             Yes     Unknown          Nevada (per audit)     Yes       No
 Arizona             No          No          New Hampshire          Yes     Unknown
 Arkansas            Yes      Unknown        New Jersey             Yes        No
 California          Yes         No          New Mexico             No         No
 Colorado            No          No          New York               Yes     Unknown
 Connecticut         No          No          North Carolina         No         No
 Delaware            Yes      Unknown        North Dakota           Yes     Unknown
 DC                  No          No          Ohio                   Yes     Unknown
 Florida             No          No          Oklahoma               No         No
 Georgia             No          No          Oregon                 No         No
 Hawaii              Yes      Unknown        Pennsylvania           Yes     Unknown
 Idaho               No          No          Puerto Rico            Yes        No
 Illinois            Yes         No          Rhode Island           Yes     Unknown
 Indiana             Yes      Unknown        South Carolina         Yes     Unknown
 Iowa                Yes      Unknown        South Dakota           Yes     Unknown
 Kansas              No          No          Tennessee              Yes     Unknown
 Kentucky            Yes      Unknown        Texas                  Yes        No
 Louisiana           Yes         No          Utah                   Yes     Unknown
 Maine               Yes      Unknown        Vermont                No         No
 Maryland            Yes      Unknown        Virgin Islands         Yes     Unknown
 Massachusetts       Yes      Unknown        Virginia               Yes     Unknown
 Michigan            No          No          Washington             Yes     Unknown
 Minnesota           Yes      Unknown        West Virginia          Yes     Unknown
 Mississippi         Yes      Unknown        Wisconsin              Yes        No
                                             (per audit)
 Missouri            Yes      Unknown        Wyoming                No         No
 Montana             No          No

37 of 53 states have penalties for employers not reporting new hires.

28               New Hire Detection Is a Better Method For Establishing UI Overpayments
                                                                         05-04-002-03-315
                                  U.S. Department of Labor—Office of Inspector General


                                                                              Exhibit G

State UI Agency’s Role in Compiling and/or Maintaining the SDNH

In response to our question, “Is the State UI agency responsible for
compiling/maintaining the SDNH?” the 53 states’ comments are summarized
below:

                 Is the State UI Is the State UI
                                                    Are the SDNH Compiled and/or
                     Agency          Agency
                                                    Maintained by a Contractor? If
      State     Responsible for Responsible for
                                                       Yes, Contractor Name Is
                 Compiling the Maintaining the
                                                              Included.
                     SDNH?           SDNH?
Alabama                Yes             Yes                            No
Alaska                 No              No                             No
Arizona                Yes             Yes                            No
Arkansas              Yes              Yes         Policy Studies, Inc. (PSI) is involved
California            Yes              Yes                            No
                                                   Affiliated Computer Services assists
Colorado              No                No
                                                    in SDNH compilation (data entry)
                                                     Saztec International Inc. assists
Connecticut           Yes              Yes
                                                    in SDNH compilation (data entry)
Delaware              No                No                            No
District of                                           Northrop Grumman, Inc. (NGI)
                      No                No
Columbia                                                         is involved
Florida               No               No                  PSI compiles the SDNH
Georgia               No               No                      PSI is involved
Hawaii                No               No                             No
Idaho                 Yes              Yes                            No
                                                      Bank One Corporation assists
Illinois              Yes              Yes
                                                            in SDNH compilation
Indiana               No               No                      PSI is involved
Iowa                  No               No                             No
Kansas                Yes              Yes                            No
Kentucky              No               No                      NGI is involved
Louisiana             No               No                             No
Maine                 No               No                             No
Maryland              No               No                      PSI is involved
Massachusetts         No               No                             No
Michigan              No               No                 NGI compiles the SDNH
Minnesota             No               No                      PSI is involved
Mississippi           No               No                      NGI is involved
Missouri              No               No                             No



New Hire Detection Is a Better Method For Establishing UI Overpayments                 29
05-04-002-03-315
U.S. Department of Labor—Office of Inspector General


                                                               Exhibit G (Continued)

                  Is the State UI Is the State UI
                                                       Are the SDNH Compiled and/or
                      Agency          Agency
                                                       Maintained by a Contractor? If
     State       Responsible for Responsible for
                                                          Yes, Contractor Name Is
                  Compiling the Maintaining the
                                                                 Included.
                      SDNH?           SDNH?
Montana                 No              No                         No
Nebraska                No              No                  Maximus is involved
Nevada                  Yes             Yes                        No
New
                       Yes               No                         No
Hampshire
New Jersey             No               No          NGI compiles and maintains SDNH
New Mexico             No               No                     PSI is involved
New York               No               No                  ACS compiles SDNH
North Carolina         No               No             SC Data performs data entry
North Dakota           No               No                           No
Ohio                   Yes              Yes                    PSI is involved
Oklahoma               Yes              No                           No
Oregon                 No               No                           No
Pennsylvania           Yes              Yes         Deloitte Consulting compiles SDNH
Puerto Rico            Yes              Yes                          No
Rhode Island           No               No                  Maximus is involved
South Carolina         No               No                           No
South Dakota           Yes              Yes                          No
Tennessee              No               No            Maximus compiles the SDNH
Texas                  No               No          NGI compiles and maintains SDNH
Utah                   Yes              Yes                          No
Vermont                Yes              No                           No
Virgin Islands         Yes              Yes                          No
Virginia               No               No                PSI compiles the SDNH
Washington             No               No                           No
West Virginia          No               No             PSI is involved in compilation
Wisconsin              Yes              Yes                    NGI is involved
Wyoming                No               No                     PSI is involved

Summary

For the 53 UI programs listed above:
   • 19 State UI Agencies compile the SDNH.
   • 16 State UI Agencies compile and maintain the SDNH.
   • 37 other state agencies compile or maintain the SDNH (See Exhibit H).
   • 27 contractors data entry service providers, consulting firms, and other state
       agencies are involved in compiling and maintaining the SDNH.

30               New Hire Detection Is a Better Method For Establishing UI Overpayments
                                                                         05-04-002-03-315
                                  U.S. Department of Labor—Office of Inspector General


                                                                             Exhibit H

Other State Agencies Compiling and/or Maintaining the SDNH

In response to our questionnaire, 37 states’ comments concerning the
responsible state agency for compiling or maintaining the SDNH when the state
UI agency is not responsible for compilation and maintenance are summarized
below:

              What Agency is Responsible for       What Agency is Responsible for
     State
                    Compiling the SDNH?                  Maintaining the SDNH?
               Department (Dept.) of Revenue,            Department of Revenue,
Alaska
                 Child Support Enforcement             Child Support Enforcement
              Dept. of Human Services, Division    Dept. of Human Services, Division
Colorado
                of Child Support Enforcement          of Child Support Enforcement
              Dept. of Health & Social Services,    Dept. of Health & Social Services,
Delaware
                   Division of Child Support             Division of Child Support
DC            Office of the Corporation Counsel     Office of the Corporation Counsel
              Dept. of Revenue, Division of Child     Dept. of Revenue, Division of
Florida
                     Support Enforcement               Child Support Enforcement
Georgia          Dept. of Human Resources              Dept. of Human Resources
               Dept. of Attorney General, Child      Dept. of Attorney General, Child
Hawaii
                Support Enforcement Agency            Support Enforcement Agency
Indiana        Family Social Services Agency         Family Social Services Agency
                  Dept. of Human Services,              Dept. of Human Services,
Iowa
                     Bureau of Collections                Bureau of Collections
               Cabinet for Families & Children,      Cabinet for Families & Children,
Kentucky
                   Division of Child Support             Division of Child Support
               Social Services, Office of Family         Social Services, Office of
Louisiana           Support, Child Support             Administration and Finance,
                    Enforcement Services                   Information Services
Maine              Dept. of Human Services               Dept. of Human Services
Maryland         Dept. of Human Resources              Dept. of Human Resources
                       Dept. of Revenue,                    Dept. of Revenue,
Massachusetts
                 Child Support Enforcement             Child Support Enforcement
                                                      Family Independence Agency
Michigan                Dept. of Treasury
                                                               Child Support
                Dept. of Human Services, Child       Dept. of Human Services, Child
Minnesota
                 Support Enforcement Division         Support Enforcement Division
                Dept. of Human Services, Child       Dept. of Human Services, Child
Mississippi
                      Support Enforcement                 Support Enforcement
                Dept. of Social Services, Division Dept. of Social Services, Division of
Missouri
                 of Child Support Enforcement          Child Support Enforcement
                   Public Health and Human
                                                   Public Health and Human Services,
Montana             Services, Child Support
                                                       Child Support Enforcement
                          Enforcement




New Hire Detection Is a Better Method For Establishing UI Overpayments                31
05-04-002-03-315
U.S. Department of Labor—Office of Inspector General


                                                              Exhibit H (Continued)

               What Agency is Responsible for What Agency is Responsible for
     State
                      Compiling the SDNH?                Maintaining the SDNH?
               Dept. of Health & Human Services, Dept. of Health & Human Services,
Nebraska
                   Child Support Enforcement           Child Support Enforcement
New                                                    Dept. of Health and Human
                         State UI Agency
Hampshire                                                         Services
               Dept. of Human Services, Division Dept. of Human Services, Division
New Jersey      of Family Development, Office of    of Family Development, Office of
                   Child Support Enforcement           Child Support Enforcement
               Human Services Dept., Division of Human Services Dept., Division of
New Mexico
                   Child Support Enforcement           Child Support Enforcement
New York         Dept. of Taxation and Finance       Dept. of Taxation and Finance
                       Dept. of Health and                 Dept. of Health and
North Carolina
                         Human Services                      Human Services
                 Dept. of Human Services, Child      Dept. of Human Services, Child
North Dakota
                  Support Enforcement Agency          Support Enforcement Agency
                                                     Dept. of Human Services, Child
Oklahoma                 State UI Agency
                                                     Support Enforcement Division
                         Dept. of Justice,                   Dept. of Justice,
Oregon
                     Division of Child Support           Division of Child Support
                      Dept. of Administration,       Department of Administration,
Rhode Island           Division of Taxation,               Division of Taxation,
                   Child Support Enforcement           Child Support Enforcement
                 Dept. of Social Services, Child     Dept. of Social Services, Child
South Carolina
                  Support Enforcement Division       Support Enforcement Division
Tennessee            Dept. of Human Services             Dept. of Human Services
                   Office of Attorney General,         Office of Attorney General,
Texas
                      Child Support Division              Child Support Division
                                                       Agency of Human Services,
Vermont                  State UI Agency
                                                          Office of Child Support
                Dept. of Social Services, Division Dept. of Social Services, Division
Virginia
                  of Child Support Enforcement        of Child Support Enforcement
                    Dept. of Social and Health
Washington                                         Dept. of Social and Health Services
                              Services
                       Dept. of Health and                 Dept. of Health and
West Virginia
                        Human Resources                     Human Resources
                     Dept. of Family Services,           Dept. of Family Services,
Wyoming
                   Child Support Enforcement           Child Support Enforcement




32              New Hire Detection Is a Better Method For Establishing UI Overpayments
                                                                        05-04-002-03-315
                                  U.S. Department of Labor—Office of Inspector General




                           APPENDICES




New Hire Detection Is a Better Method For Establishing UI Overpayments             33
05-04-002-03-315
                                  U.S. Department of Labor—Office of Inspector General


                                                                         Appendix A


BACKGROUND
Each state UI program is required to operate a BPC program for preventing,
detecting, and recovering UI overpayments. The legal basis for prevention,
detection, and recovery of overpayments emanates from provisions of the Social
Security Act and Internal Revenue Code. The Secretary of Labor has interpreted
those Federal Law provisions to require that a State’s law include provisions for
such methods of UI administration as are, within reason, calculated to:

   •   Prevent errors and/or abuse by claimants, employers, and others;
   •   Detect benefits paid through error by the agency, or through willful
       misrepresentation or error by the claimant or others; and
   •   Recover benefits overpaid.

PRWORA requires employers to report new hires. The major purpose for
requiring the reporting of new hires is to locate individuals with child support
obligations. However, PRWORA allows state UI programs access to New Hire
information in the SDNH to help administer the UI programs. New Hire
information can help detect UI overpayments early and prevent future
overpayments from occurring. New Hire detection is an excellent method of
detecting and preventing improper UI payments caused when claimants return to
work, but fail to report their earnings. PRWORA requires employers to report
new hires within a specified period, no longer than 20 days from the date of hire.
The new hire information is crossmatched against UI benefit claim records to
determine if a claimant was reported as a new hire and failed to report earnings
while receiving UI benefits.

The New Hire detection method, because of more current information, enables
UI overpayments to be detected, in most cases, in the early weeks of a claim,
compared to the traditional Wage/UI Benefit crossmatch and other detection
methods. This results in smaller overpayments being established and prevents
additional weeks of overpayments that would occur if the overpayments were
detected using the Wage/UI Benefit crossmatch or another detection method.
Furthermore, early detection results in a greater chance of recovery of claimant
overpayments. The effective use of New Hire detection by the state UI programs
can have a major impact on protecting UI program integrity.

Of the $30 billion in UI benefits paid in calendar year 2001, the DOL Benefit
Accuracy Measurement (BAM) System estimates that $2.4 billion in UI
overpayments occurred. Approximately $765 million of the $2.4 billion were the
result of benefit year earnings errors, which is the type of overpayment detected
through New Hire detection. Also, overpayment rates projected by BAM have



New Hire Detection Is a Better Method For Establishing UI Overpayments             35
05-04-002-03-315
U.S. Department of Labor—Office of Inspector General


remained flat at approximately 8.5 percent from 1992 through 2001. This raises
a concern that the effort to reduce overpayments needs improvement.

Effective New Hire detection programs by the states provide early intervention in
detecting UI overpayments, reducing the dollar amount of individual
overpayments and increasing overpayment recovery.

Over the years, the OIG has identified weaknesses and vulnerabilities relative to
overpayment detection, recovery and reduction of overpayments. For example,
in March 1999, we issued a report entitled “Audit of Benefit Payment Controls:
Examination of UI Benefit/Wage Crossmatch and Analysis of Employers Who
Fail to Respond to the States’ Requests For Weekly Wage Data.” This report
discussed the impact of the New Hire reporting requirements of PRWORA, and
indicated the use of new hire information to detect UI overpayments had the
potential to be a more effective detection method than the Wage/UI Benefit
crossmatch. At the time of our audit work, the impact of the new hire
requirements was just beginning and most states had not implemented or refined
their New Hire detection procedures. The report also presented obstacles to
using New Hire detection, such as not having access to the NDNH. State UI
programs access to the NDNH would provide new hires working in other states,
new hires in their state reported by multistate employers to another state
selected for reporting, and Federal Government new hires reported directly to the
NDNH.

In September 2003, we issued a report entitled “Improved Quality Control
Practices Within the Benefit Accuracy Measurement System Could Save the
Unemployment Trust Fund Approximately $400 Million Annually.” This report
discussed the implementation of the New Hire database connectivity in the states
not using New Hire detection as well as recommending the New Hire crossmatch
to occur at least weekly.




36              New Hire Detection Is a Better Method For Establishing UI Overpayments
                                                                        05-04-002-03-315
                                  U.S. Department of Labor—Office of Inspector General


                                                                         Appendix B


OBJECTIVES, SCOPE,
METHODOLOGY, AND CRITERIA
Audit Objectives:
Our objectives were to determine whether New Hire detection is proving to be
more effective and efficient than the traditional Wage/UI Benefit crossmatch, and
if so, what obstacles are preventing some of the states from embracing this
detection method?

Sub-objectives include:

       •   Which states are using new hire data to detect UI overpayments, and
           which are not?
       •   For the states using new hire data to detect overpayments:

           i. What specific procedures are being utilized?
           ii. What impact has New Hire detection had in terms of the number
                and amount of overpayments prevented, detected, and recovered?
           iii. What time, cost, or other efficiencies have resulted from the use of
                new hire data compared to the Wage/UI Benefit crossmatch?

Scope:
We conducted a performance audit of the implementation of the New Hire
detection method, which is a recent addition to the BPC methodologies for
detecting UI overpayments.

Our audit covered ETA national office operations, results of questionnaires sent
to all 53 state UI programs, and fieldwork in nine states (California, Florida,
Illinois, Louisiana, Nevada, New Jersey, Oklahoma, Texas and Wisconsin). Our
fieldwork began December 2002 and ended August 2003.

Methodology:

Our preliminary fieldwork at ETA headquarters involved interviewing UI BPC
program staff, reviewing information as it related to our audit objectives,
gathering preliminary information, and obtaining ETA officials’ insights on New
Hire detection.

We reviewed ETA-227 reports provided to us through the ETA National Office for
the period January 1 through September 30, 2002. We compared the ETA-227

New Hire Detection Is a Better Method For Establishing UI Overpayments             37
05-04-002-03-315
U.S. Department of Labor—Office of Inspector General


data provided for analysis between detection methods. However, the ETA-227
data, prepared by the state UI programs, was not subjected to audit verification.
We did not verify the information and detection results provided to us.

We sent questionnaires to all 53 state UI programs to obtain information on New
Hire detection. All 53 responded to our questionnaire along with other state
agencies if the SDNH was not compiled or maintained by the UI agency. The
questionnaires provided us useful information and were the basis for selecting
our sample of nine state UI programs.

We judgmentally selected our sample of nine state UI programs to audit based
on analyzing information we obtained from the New Hire questionnaires
completed by the state UI programs and/or other state agencies. Our analysis
resulted in selecting a mix of state UI programs deemed to have good, average,
weak, or no New Hire detection program. The sample represents 17 percent of
the state UI programs. The selected state UI programs represent a good cross
section of state UI programs and include five of the largest UI programs. The
states selected were California, Florida, Illinois, Louisiana, Nevada, New Jersey,
Oklahoma, Texas and Wisconsin. We chose a judgmental sample and the
results cannot be projected to all the state UI programs.

For the nine state UI programs selected for the audit, we conducted interviews to
gain an understanding of how the SDNH is compiled and maintained. When
necessary, we also interviewed contractor personnel compiling and/or
maintaining the SDNH. We also conducted interviews with state UI officials to
determine how New Hire detection procedures are carried out (seven states) or
why New Hire detection is not used (two states). We also obtained and updated
ETA-227 data through December 31, 2002. The data was not subject to audit
verification.

We attempted to gain access to the NDNH through ETA and OCSE officials, so
one of the states in our sample could match its UI claims database against the
NDNH to identify potential overpayments not captured through the state’s New
Hire detection crossmatch. Our intent was to assess the impact of current SDNH
data limitations by determining the number of matches from the NDNH that result
from (1) employers located in multiple states reporting all new hires to one
designated state, and (2) Federal Government reporting of new hires directly to
the NDNH. However, OCSE officials denied us access to the NDNH because
the law does not specify access by state UI programs or us. The denial did not
have a material effect on our audit objectives.

Our audit was performed in accordance with Government Auditing Standards
issued by the Comptroller General of the United States.




38              New Hire Detection Is a Better Method For Establishing UI Overpayments
                                                                        05-04-002-03-315
                                  U.S. Department of Labor—Office of Inspector General


Criteria:
Personal Responsibility and Work Opportunity Reconciliation Act of 1996
(PRWORA)

PRWORA requires each state to operate a SDNH. Employers are to report
newly hired employees’ names, addresses, and Social Security Numbers and the
employer’s name, address, and Federal Employee Identification Number to the
SDNH not later than 20 days after the date the employer hires the employee.
PRWORA also requires the establishment of a NDNH, which is maintained by
the U.S. Department of Health and Human Services. SDNH data is to be
submitted to the NDNH within three days of entry into the SDNH. State UI
programs have access to the SDNH, not the NDNH.

BPC Criteria

The legal basis for prevention, detection, and recovery of overpayments
emanates from provisions of the Social Security Act and Internal Revenue Code.
The Secretary of Labor has interpreted those Federal Law provisions to require
that a State's law include provisions for such methods of administration as are
within reason calculated to:

   •   Prevent errors and/or abuse by claimants, employers and others;
   •   Detect benefits paid through error by the agency; or through willful
       misrepresentation; or error by the claimant, or others; and
   •   Recover benefits overpaid.

UIPL No. 36-00

ETA issued this policy letter to encourage state UI programs to take full
advantage of the New Hire system to prevent and detect overpayments
attributable to UI claimants that have returned to work but continue to claim UI
benefits. This UIPL, dated October 10, 2000, also provided comparison
information between the New Hire detection method and Wage/UI Benefit
crossmatch. New Hire detection has the ability to identify potential UI
overpayments sooner in the UI claims series. New Hire reporting by employers
is continuous throughout the quarter because employers are required to report
within specified times. Since the New Hire data is available quickly, often
relatively soon after overpayments occur and before claimants have claimed
several weeks of benefits, overpayments can be established and benefits
stopped before subsequent weeks have been overpaid. Conversely, the
Wage/UI Benefit crossmatch has built-in delays that include receiving and
posting quarterly wage record information from employers. Quarterly wage
records are not available for crossmatch purposes until the second quarter after
the reported wage record quarter due to the delays.


New Hire Detection Is a Better Method For Establishing UI Overpayments             39
05-04-002-03-315
U.S. Department of Labor—Office of Inspector General


                                                                          Appendix C


ACRONYMS AND ABBREVIATIONS
BAM                                 Benefit Accuracy Measurement

BPC                                 Benefit Payment Control

Dept.                               Department

DOL                                 U. S. Department of Labor

DHHS                                U. S. Department of Health and Human
                                    Services

ETA                                 Employment and Training Administration

FDW                                 First Day of Work

NDNH                                National Directory of New Hires

NGI                                 Northrop Grumman, Inc.

NJDOL                               New Jersey Department of Labor

OCSE                                U.S. Department of Health and Human
                                    Services, Administration for Children and
                                    Families, Office of Child Support Enforcement

PRIDE Act                           Personal Responsibility and Individual
                                    Development for Everyone Act

PRWORA                              Personal Responsibility and Work Opportunity
                                    Reconciliation Act of 1996

PSI                                 Policy Studies, Inc.

SDNH                                State Directory of New Hires

UI                                  Unemployment Insurance

UIPL                                Unemployment Insurance Program Letter




40              New Hire Detection Is a Better Method For Establishing UI Overpayments
                                                                        05-04-002-03-315
                                  U.S. Department of Labor—Office of Inspector General


                                                                         Appendix D


RESPONSE TO DRAFT REPORT




New Hire Detection Is a Better Method For Establishing UI Overpayments             41
05-04-002-03-315
U.S. Department of Labor—Office of Inspector General




42              New Hire Detection Is a Better Method For Establishing UI Overpayments
                                                                        05-04-002-03-315
                                  U.S. Department of Labor—Office of Inspector General




New Hire Detection Is a Better Method For Establishing UI Overpayments             43
05-04-002-03-315
